                            CLOSEOUT FOR M970 10001


            O n 3 January 1997, OIG received an allegation that the subject' may have
    committed misconduct in science. It was alleged that the subject, who worked with
    her advisor as a postdoctoral associate, may have plagiarized or stolen ideas from the
    her advisor's 1993 grant proposal to NM2 and used them in her 1996 grant proposal to
    NSF.3 It was alleged that this was likely if the subject's proposal dealt with the
    physiology of a certain organ system in a certain type of organism. The complainant
    was particularly concerned that the subject's proposal might substantially overlap the
.   advisor's, examine similar hypotheses, and use similar methodology. The complainant
    stressed that since he had not seen the subject's NSF proposal, he had no evidence of
    any impropriety; rather, his allegation was based totally on his past experience with
    the subject which lead him to believe that she may have refurbished the advisor's N M
    proposal or otherwise used the advisor's work without proper attribution.

            OIG obtained the subject's 1996 NSF proposal and compared it with the
    advisor's 1993 NIH proposal. The advisor's 1993 NIH proposal was based on a broad
    interest in the physiology of an organ system of these organisms as stemming from its
    relevance to their role as disease vectors.          Although the intellectual and
    methodological content of the NIH proposal was almost entirely the advisor's,
    stemming from an earlier proposal of his to NSF," we learned that the subject played a
    minor role in developing his NIH proposal.

            By contrast to the advisor's proposal, the subject's proposal was narrower,
    focusing on a particular hypothesis about the role of this organ system in water loss.
    To test this hypothesis, the subject proposed to characterize the relationship of the
    physiology of this organ system to water loss in species with three different types of life
    histories.' Some of the methodologies proposed by the subject were the same as those
    used by the advisor, including a new methodology described in the advisor's proposal;
    other techniques that the subject proposed to use differed from the advisor's
    methodology.

           A comparison of the overall content of these proposals, an assessment of the
    subject's previous work in this area, and an evaluation of the status of research in this
    field lead to the conclusion that .the subject's proposal was her own intellectual
    product, and not the result of intellectual theft. Although the subject's proposed work




                                       Page 1 of 3                               M97-01
                         CLOSEOUT FOR M970 10001
is clearly in the same subject area as the advisor's, it is narrower and focuses on the use
of comparative physiology to test a specific hypothesis. The subject's proposal is a
natural extension of the subject's previous work in this field. During the period from
1992-1996 the subject co-authored 13 publications in this field of research; the advisor
was also a co-author of five of these publications. Four of the subject's publications
discussed the hypothesis about water loss. The subject is therefore well established in
this field and is well acquainted with the various methodologies used by researchers in
this field. Moreover, it is clear that the subject, as a collaborator of the advisor, was
well versed in the particular forms of these methodologies favored by the advisor.
Indeed, the new methodology that was mentioned in both the advisor's and subject's
proposals was first described in a publication co-authored by the advisor and ~ubject.~
Not only did the subject have the right, as would any scientist, to enter this field and
write a proposal on that topic; she might reasonably have been expected to do so,
based on her background and publishing history.

        Neither the advisor nor the subject originated this area of research; rather, it
was discovered by other researchers about half a century ago, and has been studied by
many researchers ever since. The study of this physiology in these species was initiated
by other researchers in the late 1970's. The hypothesis about water loss was originally
put forth by two other researchers in the early 1980's, and has been examined by many
researchers in the intervening years. The published hypotheses and methodologies in
this area have been the topic of research by many researchers in the past, and are
clearly open to others who wish to enter the field in the future.

        Since this field of research is not a unique, novel, and previously unpublished
area originating with the advisor, the allegation that the subject may have stolen ideas
if her proposal dealt with this field of research, examined similar hypotheses, and used
similar methodology, is without sufficient substance to pursue. No one can carve out
an entire field, its hypotheses, and methodologies and claim them as his exclusive
territory. This is especially true as applied to the advisor in this case, who was
expected to assist the subject in becoming established in the field, and with whom he
collaborated and published on these very topics. Based on the subject's previously
published work, the published literature in the field, and a comparison of the proposals
of the advisor and the subject, we conclude that there is no evidence of intellectual
theft in the subject's proposal.

        Similarly, we conclude that the subject did not seriously deviate from accepted
practices in regard to minor textual similarities between her proposal and her advisor's.
It is $vident from the overall style of her proposal that the subject patterned 'her
prdposal after the advisor's. We see nothing inappropriate about this stylistic
imitation, since it is a well accepted practice for junior associates to use their advisors'


                                                       - -

                                   Page 2 of 3                               M97-01
                   '

                        CLOSEOUT FOR M970 10001
successful proposals as models in learning how to write a proposal. We also see
nothing inappropriate about two routine methodological paragraphs in the subject's
proposal that appear to have been paraphrased from similar paragraphs in the
advisor's proposal and contain a citation for a source for the procedures. Such
procedures would have to be set out in a way similar to this to ensure an accurate
description of the procedure. In addition, the subject's proposal contains three widely
separated sentences and one seven line methodological description that are nearly
identical to the corresponding material in the advisor's proposal. Although we believe
such verbatim copying is usually inappropriate, for the following reasons we do not
believe that in this instance it was a serious deviation from accepted practices. One of
the three sentences is intrinsic to the stylistic imitation discussed above; the other two
are very broad generalizations of an introductory nature, with little specific scientific
content. The seven line methodological description is that of the new methodology
mentioned above. This technique was first described in an article the subject co-
authored with the advisor. In her proposal, the subject cites this co-authored article as
the source of the technique, although the wording is a close match for the advisor's
proposal but not the article. Because the subject correctly attributed this technique to
the advisor and herself, and the technique was a joint product of the two, we think
that the use of a short amount of wording identical to that in the advisor's proposal
was not serious. In short, the three sentences and seven lines of methodological
description do not rise to the level of misconduct in science.

       From the foregoing analysis, we concluded that the allegations of misconduct in
science have insufficient substance to pursue further.

       This inquiry is closed and no further action will be taken.

cc: Assistant Counsel to the IG, AIG-Oversight, 1G




                                   Page 3 of 3
